Supreme Court, U.S.
FILED

OCT 09 2020
OFRCEOFTHECLERK

No.

JO-637

IN THE SUPREME COURT OF THE UNITED STATES
ERNEST HEMSCHOT III,
Petitioner Pro Se
v.
THE FLORIDA DEPARTMENT OF AGRICULTURE
AND CONSUMER SERVICES, DIVISION OF LICENSING,
Respondent
On Petition for a Writ of Certiorari to the
Florida Court ofAppeal for the Fifth District

PETITION FOR A WRIT OF CERTIORARI
ERNEST HEMSCHOT III
Petitioner Pro Se
8432 SW 109th St.
Ocala, Florida 34481
973-951-7350 voice
ernesthemschot@justice.com
Petitioner Pro Se

RECEIVES j
OCT 15 2020

INTRODUCTORY STATEMENT
Petitioner applied to the Department for a concealed carry permit (of a firearm)
under Florida law. Department denied the permit because Petitioner had been com­
mitted to a mental health facility in New Jersey twenty years ago. Petitioner argued
that a New Jersey Expungement Order obtained by him nullified the record of com­
mitment and therefore no reason existed to deny the permit. Petitioner argued that
the Full Faith and Credit Clause of the United States Constitution required the State
of Florida to honor the New Jersey Expungement Order. The Florida Court of Appeals
for the Fifth District disagreed and entered a ‘PCA’ decision, or a per curiam affir­
mance of the lower tribunal without a written opinion. PCA decisions are final and
cannot be appealed to the Florida Supreme Court. Petitioner filed an omnibus motion
for rehearing/clarification/written opinion and a separate petition for rehearing en
banc. All were denied on July 22 and July 24, 2020, respectively. This Petition for
Certiorari now follows.
I.

QUESTION PRESENTED FOR REVIEW

Did the Florida Court of Appeal commit reversible error and abuse its discre­
tion in declining to recognize and apply Petitioner’s New Jersey Expungement Order
to its denial of a Florida Firearms Concealed Carry Permit, as required by the Full
Faith and Credit Clause of the United States Constitution?

i

TABLE OF CONTENTS
I.

QUESTION PRESENTED

II.

TABLE OF AUTHORITIES

III.

PETITION FOR WRIT OF CERTIORARI

1

IV.

OPINIONS BELOW

1

V.

JURISDICTION

1

VI.

STATEMENT OF THE CASE

1

VII.

REASONS FOR GRANTING THE WRIT

7

l

m

VIII. CONCLUSION AND PRAYER FOR RELIEF

7

IX.

9

APPENDIX

n

II.

TABLE OF AUTHORITIES
A.

CASES

Baker v. General Motors Corn.
522 U.S. 222, 233 (1998)..........

6

Dept, of Children & Families v. J.H.K.
834 So. 2d 298 (Fla. 5th DCA 2002)......

6

Dept, of Children & Families v. V.V.
822 So. 2d 555 (Fla. 5*h DCA 2002)...

6

Fauntlerov v. Lum
210 U.S. 230 (1908)

6

Kemp & Assocs. v. Chisholm
162 So. 3d 172 (Fla. 5th DCA 2015)

6

Ledoux-Nottingham v. Downs
210 So. 3d 1217 (Fla. 2017)

6

M&R Invs. Co. v. Hacker
511 So. 2d 1099 (Fla. 5th DCA 1987)

6

Maine v. Hanson
36 So. 3d 879 (Fla. 5th DCA 2010)

6

Milliken v. Mever
311 U.S. 457 (1940)

6

Schlenther v. Department of State
743 So. 2d 536 (Fla. 2d DCA 1998)

5

V.L. v. E.L.
136 S. Ct. 1017 (2016)

6

B.

FLORIDA STATUTES

§790.06(2)(j), Fla. Stat (2020)

4
m

§790.065(2)(a)4d, Fla. Stat (2020)

C.

4

OTHER AUTHORITIES

Pub. L. 103-159, 107 Stat. §1536 et. seq. (1993)

1

Pub. L. 110-180, 121 Stat. §2559 et. seq. (2008).

1

18 U.S.C. §922(g)(4) (2020)

3

18 U.S.C. §922(d)(4) (2020)

3

28 U.S.C. §1257

1

N.J.S.A. 30:4-80.8 - 80.11 (2020)

3

Black’s Law Dictionary, 5th Ed

4

Amend. II, U.S. Const

1

“A well regulated Militia, being necessary to the security of a free State, the
right of the people to keep and bear Arms, shall not be infringed.”
Amend. XIV, §1, U.S. Const

7

Section 1. “All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property, without due process
of law! nor deny to any person within its jurisdiction the equal protection of the
laws.”

Article IV, §1, U.S. Const

2

Section 1. “Full Faith and Credit shall be given in each State to the public
Acts, Records, and judicial Proceedings of every other State. And the Congress
may by general Laws prescribe the Manner in which such Acts, Records and
Proceedings shall be proved, and the Effect thereof.”

IV

Article V, §3(b)3, Florida Const

1

Section 3. Supreme court.—
“(a) ORGANIZATION.—The supreme court shall consist of seven justices. Of
the seven justices, each appellate district shall have at least one justice elected
or appointed from the district to the supreme court who is a resident of the
district at the time of the original appointment or election. Five justices shall
constitute a quorum. The concurrence of four justices shall be necessary to a
decision. When recusals for cause would prohibit the court from convening be­
cause of the requirements of this section, judges assigned to temporary duty
may be substituted for justices.
(b) JURISDICTION.—The supreme court:
(l) Shall hear appeals from final judgments of trial courts imposing the death
penalty and from decisions of district courts of appeal declaring invalid a state
statute or a provision of the state constitution.
(2) When provided by general law, shall hear appeals from final judgments
entered in proceedings for the validation of bonds or certificates of indebted­
ness and shall review action of statewide agencies relating to rates or service
of utilities providing electric, gas, or telephone service.
(3) May review any decision of a district court of appeal that expressly de­
clares valid a state statute, or that expressly construes a provision of the state
or federal constitution, or that expressly affects a class of constitutional or state
officers, or that expressly and directly conflicts with a decision of another dis­
trict court of appeal or of the supreme court on the same question of law.”

v

III.

Petition for Writ of Certiorari

Petitioner Ernest Hemschot III applied for and was denied a Concealed Fire­
arms Carry Permit by the Department. The Florida Court of Appeal for the Fifth
District affirmed in a proceeding known colloquially as a “PCA” or per curiam af­
firmed decision without a written opinion. There is no appeal to the Florida Supreme
Court permitted from a PCA decision as per the Florida Constitution, Article V,
§3(b)3, and therefore Petitioner respectfully petitions this honorable Court for a writ
of certiorari to the Florida Court of Appeals for the Fifth District to review its final
decision in the case.
IV.

Opinions Below

The PCA decision of the Florida Court of Appeal is reproduced in full in Peti­
tioner’s Appendix at Page 1. It is explicitly not final. The decision of the Florida De­
partment of Consumer Affairs is reproduced at Petitioner’s Appendix at Page 19.
Jurisdiction

V.

The decision of the Florida Court of Appeal became final and not appealable on
July 24, 2020 by virtue of the denial of Petitioner’s petition for rehearing en banc.
Petitioner respectfully invokes this Court’s jurisdiction under 28 U.S.C. §1257, hav­
ing timely filed this petition for a writ of certiorari within ninety days of the denial.
See Appendix at Pages 2 and 3.
VI.

Statement of the Case
A.

Facts

Petitioner experienced two mental health commitments in the State of New
Jersey, one in 1996 and one in 2000. A collateral effect of the commitments was that
Petitioner was prohibited from owning and bearing firearms, a cherished Second
Amendment right. Seeking to remove that disability, Petitioner applied to the New
Jersey Superior Court for an Order expunging the commitment records, which is the
procedure under New Jersey law that removes the disability. If no record exists of the
commitment, there is no longer a disability. The New Jersey court issued an Expunge­
ment Order on January 14th, 2010; see Appendix at Page 27.
Petitioner subsequently retired and moved to the State of Florida. On
November 9, 2018, Petitioner applied for a concealed weapon carry permit in Florida.
On November 13, 2018, he received a notice from the Department of Agriculture and
Consumer Services, Division of Licensing (herein “the Department”) that the appli­
cation had been denied. The notice did not provide any specific explanation as to the

1

reason for the denial nor did it include any documentation for the denial; see Appen­
dix at Page 23.
On November 19, 2018, Petitioner filed two timely separate appeals, one with
the Department and one with the Florida Department of Law Enforcement (herein
“FDLE”). On January 4, 2019, the Department dismissed the appeal to it without
prejudice with Leave to Amend.
On January 15, 2019, a timely Amended Petition was filed with the Depart­
ment. On January 31, 2019, FDLE denied the appeal to it. On February 11, 2019, the
Department provided notification that an informal hearing was scheduled for May
14, 2019 in Jacksonville; see Appendix at page 26. Petitioner had requested a formal
hearing before an Administrative law judge! see Appendix at Page 25.
No representative appeared on behalf of the Department at the informal hear­
ing and thus, Petitioner could not ask any questions of any representative as to the
basis for the denial of the permit. Furthermore, Petitioner was never given copies of
the Department's case file. Petitioner testified at the informal hearing on May 14,
2019! see Transcript, Appendix at Page 5. At that hearing, Petitioner introduced and
discussed the importance of the New Jersey Expungement Order and the applicabil­
ity of the Full Faith and Credit Clause. On May 20, 2019, the Department issued a
•Final Order denying the appeal without addressing the Full Faith and Credit argu­
ment at all! see Appendix at Page 19.
Petitioner filed a timely appeal with the Florida Court of Appeal for the Fifth
District. That court affirmed the decision of the Department without explanation in
a non-appealable PCA decision! see Appendix at Page 1. The court never addressed
the applicability of the Full Faith and Credit Clause to the New Jersey Expungement
Order. Petitioner filed an omnibus motion for rehearing/written opinion/clarification
pursuant to Florida Court Rules. In addition, he petitioned for review en banc. All
were denied and the court issued a Mandate on August 17, 2020! see Appendix at
Page 4. This Petition for a Writ of Certiorari now follows.
B. Applicability of the Full Faith and Credit Clause
By way of background, in January of 2008 Congress enacted the NICS Im­
provement Amendments Act of 2008 (herein NIAA), Pub. L. 110-180, 121 Stat. 2559
(2008), which the federal government adopted in response to the Virginia Tech trag­
edy in April of 2007. The purpose of the Act was to encourage states to supply mental
health records to the federal government in accordance with the Brady Handgun Vi­
olence Prevention Act of 1993, Pub. L. 103-159, 107 Stat. 1536 (1993).
One of the goals of the NIAA was to expand the national database of persons
who had been committed for mental health treatment and to enhance the effective2

ness of federal law barring the purchase of firearms by such persons. However, the
NIAA contained explicit provisions protecting the due process rights of these individ­
uals by providing them a mechanism to obtain relief from the disabilities associated
with a commitment, such as limitations on their ability to purchase or possess fire­
arms.
It was never the intent of federal law to permanently bar persons who have
received treatment for mental illness from owning firearms. The NIAA encouraged
states to adopt laws that afforded relief from the disability by conditioning federal
grants to states to upgrade their systems on the passage of such disability relief laws.
121 Stat. at 2568.
Under the NIAA, a qualifying state law is one that offers relief from the fire­
arms disability to persons who have been committed to a mental institution and are
disqualified pursuant to 18 U.S.C. 922(g)(4). See 121 Stat. 2569-70. Under a qualify­
ing program, relief is mandated if the applicant meets a two-pronged standard of
“lack of dangerousness” and the relief is “not contrary to the public interest”:
“[A] state court, board, commission, or other lawful authority shall grant
the relief, pursuant to State law and in accordance with the principles
of due process, if the circumstances regarding the disabilities referred to
in paragraph (l), and the person's record and reputation, are such that
the person will not be likely to act in a manner dangerous to public
safety and that the granting of the relief would not be contrary to the
public interest.”
121 Stat. at 2570 (emphasis added). The qualifying program must also permit de novo
judicial review if the initial decision is by a non-judicial entity. 121 Stat. § 105(a)(3)
at 2570.
The NIAA provides that if relief is granted pursuant to a qualifying law, "the
adjudication or commitment ... is deemed not to have occurred for purposes of 18
U.S.C. 922(d)(4). It is that provision which prohibits the sale of firearms to a person
adjudicated as a mental defective or who has been committed to a mental institution,
and 18 U.S.C. 922(g)(4) which prohibits the purchase, transportation or possession of
firearms by such persons.” See 121 Stat. 2570 (emphasis added)1.
The New Jersey qualifying program which provides relief from legal disabili­
ties is an Expungement of the commitment records if the petitioner satisfies the stat­
utory criteria, found at N.J.S.A. 30:4-80.8 through 80.11. At the informal hearing,

1 For a concise summary of the NIAA and the conditions for relief see https7/www.bjs.gov/content/pub/pdf/niaasrpc.pdf, sourced on August 28, 2020, and for a summary of the related federal fire­
arms laws, see https7/www.atf.gov/file/58791/download, sourced on August 28, 2020.

3

Petitioner submitted a copy of the Expungement Order issued by the New Jersey
court pursuant those provisions. Notably, that law states:
“If the court finds that the petitioner will not likely act in a manner dangerous
to the public safety and finds that the grant of relief is not contrary to the
public interest, the court shall grant such relief for which the petitioner has
applied and, an order directing the clerk of the court to expunge such commit­
ment from the records of the court.” Id. (Emphasis added)
Once an expungement is granted, "the commitment shall be deemed not to have oc­
curred and the petitioner may answer accordingly any question relating to its occur­
rence." N.J.S.A, 30:4-80.11.
Black’s Law Dictionary, Fifth Edition, a venerable legal resource, defines the word
“expunge” as:
“Expunge: To destroy; blot out; obliterate; erase; efface designedly;
strike out wholly. The act of physically destroying information-including
criminal records -in files, computers, or other depositories.”
New Jersey’s Expungement Law is now in accord with the Federal guidelines as a
‘Qualifying Relief from Disabilities’ Program2.
Petitioner availed himself of New Jersey’s relief from disabilities law and suc­
cessfully obtained an Expungement Order; Appendix . That Order was given to the
hearing officer at the hearing before the Department on May 14, 2019. However, the
hearing officer failed to consider the legal effect of the Expungement Order under the
relevant section 790.06 (2)(j) Florida Statutes (2018), which plainly states:
790.06 License to carry concealed weapon or firearm.

(2) The Department of Agriculture and Consumer Services shall issue a
license if the applicant:

(j) Has not been committed to a mental institution under chapter 394, or
similar laws of any other state. An applicant who has been granted relief
from firearms disabilities pursuant to 790.065 (2)(a)4 d or pursuant to the
2 See the Assembly Statement to the new expungement bill, No. 4301, which specifically notes that
the new expungement law was in direct response to the NIAA and the concerns of the U.S. AttorneyGeneral, https://www.njleg.state.nj.us/2008/Bills/A4500/4301_Sl.PDF, sourced on August 29, 2020.
4

law of the state in which the commitment occurred is deemed not to have
been committed in a mental institution under this paragraph. (Emphasis
added).
The Florida statute is a strikingly clear expression of legislative intent to allow
persons formerly committed to a mental institution to regain their firearm rights
upon a showing that the circumstances surrounding their commitment no longer ap­
ply, and that they are no longer dangerous to themselves or others. It was Florida's
response to the NIAA.3 The ban on possessing firearms was never intended to be a
lifetime ban. People can and do recover from mental illness.
Research does not reveal any other Florida cases directly on point; the present
case appears to be a case of first impression. Most cases deal with felons regaining
their rights after conviction. By analogy, however, the case of Schlenther v. Depart­
ment of State. Division of Licensing. 743 So.2d 536 (Fla. 2d DCA 1998) offers some
guidance.
In 1969, Schlenther committed a felony in Connecticut where he resided at the
time. Upon conviction his civil rights were suspended. Those civil rights were restored
by a court order on January 24, 1973. Later that year he moved to Florida. In 1996
he applied for a concealed weapon permit which was granted in 1997. That permit
was later administratively revoked because he had not sought restoration of his civil
rights in the State of Florida.
The Second District Court of Appeal held that Florida must give full Faith and
Credit to the Connecticut Order restoring his civil rights. That court stated:
“He [Schlenther] did not arrive here [in Florida] under a disability. To the con­
trary, he arrived as any other citizen, with full rights of citizenship. Appellant
must not now be required, twenty-five years later, to ask this State to restore his
civil rights. They were never lost here.

Once another state restores the civil rights of one of its citizens whose rights had
been lost because of a conviction in that state, they are restored, and the State of
Florida has no authority to suspend or restore them at that point. The matter is
simply at an end.
We conclude that the restoration of appellant’s civil rights in Connecticut
is entitled to full faith and credit in this State and that the appellee erred in re­
voking appellant’s concealed weapons permit. We reverse.” Id. at 537 (emphasis
added).

3See https://www.fdle.state.fl.us/OGC/Summaries/2010/2010-Legislative-Summary.aspx (page 12),
sourced on September 3, 2020.
5

The impact of the Full Faith and Credit Clause in the United States Constitu­
tion was settled over a century ago by the United States Supreme Court in Fauntlerov
v. Lum. 210 U.S. 230 (1908). Fauntlerov holds that the Full Faith and Credit Clause
required Mississippi to enforce a valid Missouri judgment although the judgment was
for a gambling obligation on futures contracts, which was specifically prohibited by
the laws of Mississippi. The Florida Fifth District Court of Appeals has specifically
noted that the law “has not changed since that decision." See, M&R Invs. Co. v.
Hacker. 511 So. 2d 1099 (Fla. 5th DCA 1987)(enforcement of a Nevada judgment for
a gambling debt, which is not permitted in Florida).
The Florida Supreme Court has observed that principles of comity and full
faith and credit apply even if the reviewing court disagrees on the merits with the
sister state. In Ledoux-Nottingham v. Downs. 210 So. 3d 1217, 1223 (Fla. 2017), a
grandparent visitation case from Colorado, the Florida Supreme Court cited with ap­
proval a 2016 decision of the United States Supreme Court, wherein that Court
stated:
“With respect to judgments, "the full faith and credit obligation is exacting."
Baker v. General Motors Corp.. 522 U.S. 222, 233 (1998). "A final judgment in
one State, if rendered by a court with adjudicatory authority over the subject
matter and persons governed by the judgment, qualifies for recognition
throughout the land." Ibid. A State may not disregard the judgment of a sister
State because it disagrees with the reasoning underlying the judgment or
deems it to be wrong on the merits. On the contrary, "the full faith and credit
clause of the Constitution precludes any inquiry into the merits of the cause of
action, the logic or consistency of the decision, or the validity of the legal prin­
ciples on which the judgment is based." Milliken v. Mever. 311 U.S. 457
(1940).” V.L. v. E.L-__ U.S.___ , 136 S.Ct. 1017.1020 (2016).
Accord, Dept, of Children & Families v. J.H.K.. 834 So. 2d 298 (Fla. 5th DCA 2002)(termination of parental rights in New Mexico); Kemp & Assocs. v. Chisholm. 162 So. 3d
172 (Fla. 5th DCA 2015) (recognition of Texas adoption judgment for purposes of in­
heritance in Florida); Dept, of Children & Families v. V.V., 822 So. 2d 555 (Fla. 5th
DCA 2002)(termination of parental rights in Mississippi); Maine v. Hanson. 36 So. 3d
879 (Fla. 5th DCA 2010)(effect of foreign judgment which had been docketed in Flor­
ida).
Based on this line of cases, it is indisputable that the State of Florida must
give full faith and credit to the Expungement Order from New Jersey. Failure to do
so by the Department is a gross abuse of discretion and reversible error. Petitioner
has already done everything in New Jersey that he is required to do! his commitment
was expunged in accordance with federal guidelines. Petitioner should not now be
required years later to avail himself of Florida’s relief from disabilities statute under
FS 790.065 (2)(a)4d, which only applies to residents who were committed in the State
of Florida. Because his commitments were in New Jersey, the New Jersey
6

Expungement Order is dispositive and final. Failure to recognize such leaves Peti­
tioner without a remedy and permanently deprived of his Second Amendment rights.
The irony here is that Petitioner could lawfully possess firearms in New Jersey
after the Expungement Order was issued, but now cannot do so in Florida under the
Department’s mistaken interpretation of Florida law. The result is also a clear vio­
lation of the Florida Constitution and the Equal Protection Clause of the Fourteenth
Amendment to the U.S. Constitution in that Florida is discriminating against Peti­
tioner because of the legally expunged mental health records.
VII.

REASONS FOR GRANTING THE WRIT

Although the United States Supreme Court generally only considers matters
of great public importance, the present case should be taken up. Petitioner has been
consistently denied his rights by the State of Florida, which has now taken action
that has violated his Second Amendment rights permanently. There is no further
appeal in the State of Florida because of the unique application of per curiam affirmed
(PCA) decisions. One can only conclude that the Florida court denied relief without
even considering the impact of the Full Faith and Credit Clause and the Expunge­
ment Order on the applicable law. The opinion of the Department of Agriculture is
now the official position of the State of Florida in this matter. That opinion is inher­
ently flawed for not even addressing the Full Faith and Credit Clause, and therefore
the holding of the Court of Appeals must fall. The United States Supreme Court is
now the court of last resort which can correct this gross abuse of discretion.
Although this case may not be a matter of great public importance, it is for
Petitioner. Without this honorable Court’s intervention, he has no other remedy to
correct this manifest injustice. Petitioner and persons like him deserve a full and fair
hearing on the merits which has been consistently denied in Florida. Recovered men­
tally ill citizens deserve a second chance, and Petitioner has followed all applicable
law to get that chance. Please grant this petition.
VIII.

CONCLUSION AND PRAYER FOR RELIEF

Appellee’s failure to give Full Faith and Credit to the Expungement Order from
New Jersey was reversible error, and the Court should reverse and remand the mat­
ter back to the Department of Agriculture and Consumer Services with specific in­
structions to issue the concealed carry permit if all other statutory criteria are met.
Failing that, the Court should reverse and remand the matter back to the Depart­
ment for a formal hearing before a real judge instead of a supervisor as Petitioner
originally requested.

7

DATED this 8th day of October, 2020.
Respectfully submitted,

Ernest Hemschot III, Petitioner
8432 SW 109th Street
Ocala, Florida 34481
973-951-7350 voice
ernesthemschot@justice.com

8

